           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



 THE SOCIAL SECURITY ADMINISTRATION’S
 INFORMATION RESOURCES MANAGEMENT
            STRATEGIC PLAN



    September 2007    A-14-07-27133




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      September 28, 2007                                                          Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Information Resources Management Strategic
           Plan (A-14-07-27133)


           OBJECTIVE

           The objective of our review was to evaluate the Social Security Administration’s (SSA)
           Information Resources Management (IRM) Strategic Plan (IRM Plan) in comparison to
           best practices and Federal requirements.

           BACKGROUND

           Purpose of an IRM Plan

           Agencies must develop and maintain an IRM Plan as required by the Paperwork
                                          1
           Reduction Act of 1995 (PRA). According to the Office of Management and Budget
           (OMB), IRM Plans should support an agency’s Strategic Plan and provide a description
           of how IRM activities help accomplish its missions, and ensure that IRM decisions are
           integrated with organizational planning, budget, procurement, financial management,
           human resources management, and program decisions. 2

           OMB does not have guidance on the specific contents of an IRM Plan. However, an
           IRM Plan should be strategic in nature and address the requirements of Federal IRM as
           expressed in the PRA and OMB Circular A-130. 3




           1
               44 U.S.C. § 3506(b)(2).
           2
               OMB Circular A-130, Management of Federal Information Resources, 8.b.(1)(a).
           3
               Id.
Page 2 - The Commissioner


The Role of Enterprise Architecture

Agencies are also required to create an Enterprise Architecture (EA) Framework to
                               4
guide strategic IRM planning. An agency’s capital planning and investment control
(CPIC) process 5 must build from the agency’s EA. An EA is the explicit description and
documentation of the current and desired relationships among business and
management processes and Information Technology (IT). The EA should describe the
"current” and “target” architectures. In addition, the EA must provide a strategy that
supports the current state of operations and also act as the roadmap for transition to its
target environment through effective IRM activities. 6 OMB annually evaluates agencies’
EA practices and recently lowered the grades of four agencies’ scores on the
President’s Management Agenda E-gov Scorecard in early 2007 because their EA
practices did not meet OMB’s expectations.

SSA IRM Strategic Planning

The most recent series of the IRM Plan replaced the Information Technology
Architecture Plan (ITAP) that was last published in October 2001. The IRM Plan
contains many ITAP features and its content reflects planning decisions made by the
Information Technology Advisory Board (ITAB). 7 SSA’s 2007 IRM Plan covers Fiscal
Years (FY) 2006-2012. At SSA, the Office of the Chief Information Officer (OCIO) is
responsible for developing SSA’s IRM Plan.

The purpose of SSA’s IRM Plan is to:

          •   describe how IRM activities help accomplish SSA’s mission, goals and
              objectives;
          •   ensure IRM decisions are integrated with organizational planning, budget,
              procurement, financial management, human resources management, and
              program decisions;
          •   present an overview of SSA’s EA; and
          •   serve as a key component of SSA’s IT CPIC process.




4
    OMB Circular A-130, Management of Federal Information Resources, 8.b.(2)(b).
5
  OMB Circular A-130, Management of Federal Information Resources, 6.c., defines CPIC process as “a
management process for ongoing identification, selection, control, and evaluation of investments in
information resources. The process links budget formulation and execution, and is focused on agency
mission and achieving specific program outcomes.”
6
    OMB Circular A-130, Management of Federal Information Resources, 8.b.(2)(a).
7
    ITAB is responsible for the development of SSA’s IT Systems Plan.
Page 3 - The Commissioner


RESULTS OF REVIEW
We compared SSA’s IRM Plan with other Federal agencies’ to identify the best
practices with regards to the IRM Plan document, given that OMB does not have
guidance on the exact contents of an IRM Plan. We found that each of the agencies’
IRM Plans we reviewed had strengths and weaknesses in different areas. We
identified and provided examples (Appendices C, D, and E) of some practices used by
other agencies that SSA can consider as a part of its IRM process. These practices,
although belonging to agencies whose sizes are different from SSA, provide examples
of clear presentation, relevant IRM contents, or enhanced structure.

SSA’s 2007 IRM Plan provides a description of the Agency’s IRM strategic objectives,
its current major IT investments, the IT CPIC process, and project management
practices. Among the numerous Federal agency IRM Plans we reviewed, SSA’s plan
has the broadest coverage. It included areas that some other agencies did not cover
such as security, privacy, information dissemination, records management and IT
human resources management. It also discussed SSA’s efforts in developing its own
versions of Federal Enterprise Architecture (FEA) reference models 8 to demonstrate
how SSA supports the goals of FEA.

However, SSA’s IRM Plan needs to be more strategic and provide a better description
of how the Agency’s information resources management activities will help accomplish
the Agency’s mission, goals and objectives. The IRM Plan would also be more useful if
it informed the reader of the Agency’s present position and what it sees as its future IT
architecture. This can best be accomplished through a description of SSA’s existing
and target EA. Finally, the IRM Plan should be structured in a way to better support the
Agency’s Strategic Plan while providing possible solutions to its future challenges and
constraints.

SSA is already in the process of taking steps to resolve these issues.




8
  According to FEA Consolidated Reference Model Document, Version 2.1, FEA reference models are a
set of interrelated “reference models” designed to facilitate cross-agency analysis and the identification of
duplicative investments, gaps and opportunities for collaboration within and across agencies. Collectively,
the reference models comprise a framework for describing important elements of the FEA in a common
and consistent way.
Page 4 - The Commissioner


SSA’s IRM PLAN SHOULD BE MORE STRATEGIC

SSA’s FY 2007 IRM Plan needs to be more strategic and support the Agency’s
Strategic Plan. The Agency’s IRM Plan is not strategic in the following areas:

•     IRM activities and the underlying EA only span 2 years into the future, even though
      the IRM Plan states that it covers FYs 2006 through 2012. According to OMB, an
      IRM Plan should support the Strategic Plan, which must cover a minimum of
      5 years. 9 However, SSA’s IT planning process, where IT resources are allocated to
      projects, and the Agency’s performance goals 10 cover only 2 years. Some of the IT
      projects approved by ITAB have life spans that are expected to go beyond 2 years;
      however, SSA’s IT Systems Plan 11 does not have IT projects that will start 2 years in
      the future. We found examples of other Federal agencies, which show longer range
                                                                                  12
      IRM planning activities, such as the Farm Credit Administration’s IRM Plan, as
      shown in Appendix C and the Bureau of Land Management’s IRM Plan 13 as shown
      in Appendix D. These IRM Plans include long-term planning for their system
      development projects. Although these are smaller agencies, we believe a similar
      practice could be adopted by SSA.
•     Some challenges are not fully addressed. SSA’s IRM Plan does not have a
      sufficient description about how the Agency plans to address its biggest challenge:
      an increased workload due to disabled and retiring baby boomers. One SSA goal is
      to maintain an average annual productivity improvement rate of 2 percent.
      However, the IRM Plan does not address if the 2 percent increase in productivity,
      due in part to systems enhancements, will be sufficient to allow SSA to effectively
      serve the baby boomers in the future, without an increase in staff. SSA needs to
      establish long-range strategies to fully address these and other critical challenges.




9
  Government Performance and Results Act of 1993, Public Law Number 103-62, § 306 b. and c. states
the strategic plan shall cover not less than 5 years forward from the FY in which the plan is submitted.
10
  OMB Circular A-11, Preparation, Submission, and Execution of the Budget, Section 200, Overview of
Strategic Plans, Performance Budgets, and Performance and Accountability Reports, defines
performance goals as performance measures with targets and timeframes. These performance
measures are reported in SSA’s Performance and Accountability Report and Annual Performance Plan as
“Performance Indicators.”
11
  SSA’s IT Systems Plan is a product of SSA’s ITAB process and contains the listing of all IT projects
reviewed and approved by ITAB.
12
     Farm Credit Administration, Information Resources Management, IRM Plan, Fiscal Years 2007-2012.
13
 United States Department of the Interior, Bureau of Land Management, Information Resources
Management Strategic Plan 2002-2005, May, 2002.
Page 5 - The Commissioner


Because SSA’s IRM strategic planning does not go beyond 2 years, its IRM Plan does
not provide a clear strategic vision of what the Agency needs or plans to do over the
next few years to address its critical challenges. For SSA’s IRM Plan to serve its
strategic purpose, SSA needs to establish a long-range IRM strategic planning process
that covers a period consistent with the Agency’s Strategic Plan.

PRESENTATION OF ENTERPRISE ARCHITECTURE COULD BE IMPROVED

EA is the blueprint that guides the Agency’s IRM strategic planning and is instrumental
to the Agency’s CPIC process. An EA is considered the blueprint because it provides
both the "current architecture" and "target architecture." Thus, these two descriptions
enable an agency to support its current state and also act as the roadmap for transition
to its target environment through IRM activities. As a result, EA can establish a clear
                                                                           14
line of sight from investments to measurable performance improvements.

The current EA section of SSA’s IRM Plan focuses on SSA’s EA process description
and its effort of developing FEA reference models. It does not provide a description of
SSA’s existing and target EA as the roadmap for reaching the Agency’s mission and
goals. In 2002, SSA developed a document with the Agency’s existing and target
architecture. 15 SSA’s April 2003 IRM Plan included the Agency’s then existing and
target architecture; however, they have not been included in the Agency’s IRM Plan
since that time.

Without a proper description of SSA’s current and future EA in its IRM Plan, readers
are not informed of the Agency’s present and target IT environment. Thus the reader is
left without the knowledge of what SSA plans or needs to achieve over the next few
years to meet the strategic mission and goals that should be integrated in a target EA.
SSA is required to architect first and then use the architecture to guide its IT investment
          16
planning. SSA’s EA should describe its existing and target EA and provide a strategy
that acts as the roadmap for transition to its target environments.




14
     OMB FEA Practice Guidance.
15
  SSA Enterprise Information Technology Architecture, SSA Application Architecture, Version 1.0,
December 16, 2002.
16
     OMB FEA Practice Guidance.
Page 6 - The Commissioner


The Office of Systems will include the following information in the next IRM Plan:

•     the existing and target EA diagrams;
•     a verbal description of the fundamental differences between the current and future
      diagrams; and
•     a transition strategy that documents the EA segmentation as well as the projects to
      manage the orderly transition from the current to the future state.

We commend the Office of Systems for its proactive approach to updating the Agency’s
IRM Plan.

THE IRM PLAN COULD BE BETTER STRUCTURED TO ADDRESS ITS RESOURCE
NEEDS, CHALLENGES AND CONSTRAINTS

IRM Plan Structure and Agency Strategic Plan Structure

SSA’s IRM Plan chapter 3, in discussing its IT initiatives, should be structured to better
support the Agency’s Strategic Plan. SSA’s Strategic Plan is organized using the
Agency’s four strategic goals with the strategic objectives related to each of the four
goals. For each of the strategic objectives, SSA’s Strategic Plan includes the expected
long-term outcomes, and a discussion of possible issues, external factors, and SSA’s
means and strategies for reaching its objectives.

The IRM Plan includes a chapter where it discusses its 15 major IT initiatives and
related strategies. However, this chapter does not discuss these initiatives and
strategies in a manner which creates a vision of how SSA uses IT projects to achieve
its goals and objectives as defined in its Strategic Plan. An example of an IRM
formatting structure that provides such a structure is used by the Department of the
Interior’s, Fish & Wildlife Service. 17 We have included an example of a section of its
IRM Plan in Appendix E, where its goal, objective, target results, performance
measures, annual performance goals, and responsible parties, for the future years are
all linked together in a one page document. SSA’s IRM Plan needs to better support
the Agency’s Strategic Plan as required in OMB Circular A-130, and provide a
description of how IRM activities will help accomplish the Agency’s mission. 18




17
 Department of the Interior, U.S. Fish and Wildlife Service, Information Resources and Technology
Management Strategic Plan, version 1.0, 09/30/2005.
18
     OMB Circular A-130, Management of Federal Information Resources, 8.b.(1)(a).
Page 7 - The Commissioner


IRM Should Provide More Information About SSA’s Resource Needs and Discuss
the Agency’s Challenges, Constraints and Projections

SSA’s IRM Plan does not sufficiently include the information resources the Agency will
need to achieve its IT initiatives and strategies. It does not adequately discuss internal
and external challenges and constraints that could hinder the IT initiatives and
strategies from achieving its goals. Furthermore, the IRM Plan does not include
information, such as projections of various initiatives, or how SSA’s IT strategies and
initiatives impact the achievement of certain measurable goals. Therefore, readers
cannot easily form a realistic expectation about what results can be achieved, what IT
activities need to be achieved, and what challenges and constraints SSA might face in
achieving its goals in the future.

OMB states an IRM Plan should be strategic in nature and address the information
                                         19
resources management of the agency. OMB defines that an IRM “…encompasses
both information itself and the related resources, such as personnel, equipment, funds
                              20
and information technology.” SSA’s IRM Plan needs to discuss challenges,
constraints and projections to provide a strategic view for the audience.

To address these issues, we recommend that Chapter 3 of SSA’s IRM Plan, where
SSA discusses its major IT initiatives, adopt the general structure of the Agency’s
Strategic Plan for each of SSA’s Strategic Objectives. SSA should provide the
audience with a clear roadmap of how the Agency plans to reach the goals and
objectives it defined by discussing areas such as the following:

          •   strategic goals and objectives;
          •   performance measures with results;
          •   information resources management activities (IT projects and strategies);
          •   major functionality targets and time frames;
          •   funding, technology, and IT staffing needs; and
          •   challenges, constraints, possible solutions, and related projections if
              available.

The OCIO is already taking steps to restructure Chapter 3 of SSA’s IRM Plan with a
focus on including more strategic information, covering a 5-year period, to tie the
information to the Agency’s Strategic Plan. We commend the OCIO for its proactive
approach to updating the Agency’s IRM Plan.




19
     OMB Circular A-130 Management of Federal Information Resources, 8.b.(1).
20
     OMB Circular A-130 Management of Federal Information Resources, 6.p.
Page 8 - The Commissioner


CONCLUSION AND RECOMMENDATIONS

SSA’s IRM Plan provides a balanced and comprehensive coverage of its IRM and
activities. However, SSA can improve in a few areas to fully address the purpose of the
Agency’s IRM Plan and meet Federal requirements. SSA’s IRM Plan needs to be more
strategic and provide a better description of how IRM activities will help accomplish the
Agency’s mission, goals and objectives.

For issues related to SSA as a whole, we recommend SSA:

  1. Establish a long range IRM strategic planning process that covers a period
     consistent with the Agency’s Strategic Plan.

For issues specific to SSA’s IRM Plan, we recommend SSA:

  2. Continue plans to include conceptual diagrams and a supplemental description of
     SSA’s existing and target EA.

  3. Adopt the general structure of the Agency’s Strategic Plan, in IRM Plan Chapter 3,
     where SSA discusses its major IT initiatives. To provide the audience with a clear
     roadmap of how SSA plans to achieve the goals and objectives it defined, for
     each of SSA’s Strategic Objective Portfolios, SSA should discuss areas such as
     the following:
      √   strategic goals and objectives;
      √   performance measures with results;
      √   information resources management activities (IT projects and strategies);
      √   major milestones and time frames;
      √   funding, technology, and IT staffing needs; and
      √   challenges, constraints, possible solutions and related projections if available.

AGENCY COMMENTS

SSA agreed with our recommendations. The Agency’s comments are included in
Appendix F.




                                                Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Farm Credit Administration, Information Resources Management, IRM
             Plan, Fiscal Years 2007-2012

APPENDIX D – United States Department of Interior, Bureau of Land Management
             Information Resources Management Strategic Plan, 2002-2005

APPENDIX E – U.S. Fish & Wildlife Service Information Resources and Technology
             Management Strategic Plan – Version 1.0, 09/30/2005

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                          Appendix A

Acronyms
CPIC       Capital Planning and Investment Control
EA         Enterprise Architecture
FEA        Federal Enterprise Architecture
FY         Fiscal Year
IRM        Information Resources Management
IRM Plan   IRM Strategic Plan
IT         Information Technology
ITAB       Information Technology Advisory Board
ITAP       Information Technology Architecture Plan
NARA       National Archives and Records Administration
OCIO       Office of Chief Information Officer
OMB        Office of Management and Budget
PRA        Paperwork Reduction Act
SSA        Social Security Administration
U.S.       United States
U.S.C.     United States Code
                                                                          Appendix B

Scope and Methodology
The objective of our review was to evaluate the Social Security Administration’s (SSA)
Information Resources Management (IRM) Strategic Plan (IRM Plan) in comparison to best
practices and Federal requirements.

To meet the objective of this audit, we reviewed relevant Federal laws, regulations and
guidance. We reviewed SSA’s documents related to IRM, SSA’s Information Technology
capital planning and investment control process with a focus on IRM strategic planning, and
SSA’s Enterprise Architecture process. We also conducted interviews to obtain an
understanding for areas critical to SSA’s IRM strategic planning.

We reviewed the IRM Plans of several Federal agencies. We compared SSA’s IRM Plan
with other Federal agencies’ to identify the best practices with regards to the IRM Plan
document, given that the Office of Management and Budget (OMB) does not have guidance
on the exact contents of an IRM Plan. We found that for the agencies we reviewed, each
has its strengths and weaknesses in different areas. We have identified and provided
examples (Appendices C, D, and E) of some practices used by other agencies that could
help SSA to better meet its IRM purposes. These practices, although belonging to agencies
whose sizes are different from SSA, provide clearer presentation, more relevant IRM
contents, or better structure.

We reviewed the following Federal laws, regulations, and guidance:

      •    Clinger Cohen Act of 1996.
      •    Paperwork Reduction Act of 1995.
      •    Government Performance and Results Act of 1993.
      •    OMB Circular A-130, Management of Federal Information Resources.
      •    OMB Circular A-11, Preparation, Submission, and Execution of the Budget.
      •    OMB FEA Practice Guidance.

We reviewed the following SSA documents:

       •   SSA Information Resources Management Strategic Plans for Fiscal Years 2002
           through 2007.
       •   SSA Strategic Plan FY 2006-FY 2011.
       •   SSA Annual Performance Plan for Fiscal Year 2008.
       •   SSA Target Information Technology (IT) Capital Planning and Investment Control
           Process (CPIC) Guide.
       •   SSA Information Technology Advisory Board meeting materials and minutes.

       •   SSA Enterprise Architecture artifacts.
                                              B-1
We contacted or interviewed SSA staff in the following components:

      •   Office of the Chief Information Officer and its Office of Information Technology
          Systems Review;
      •   Office of Systems, Office of Enterprise Support, Architecture and Engineering; and
      •   Office of Strategic Management.

We also reviewed IRM Plans of other Federal agencies, including the following:

   1. United States (U.S.) Department of the Interior,
      • Bureau of Land Management, Information Resources Management Strategic Plan
        2002-2005, May, 2002.
      • U.S. Fish & Wildlife Service, Information Resources and Technology Management
        Strategic Plan, version 1.0, 09/30/2005.
      • Minerals Management Service, Information Technology Strategic Plan and
        Information Guide, 2005 – 2007.
   2. NASA Information Resources Management (IRM) Strategic Plan, September 2006.
   3. U.S. Department of Transportation FY 2006-FY 2011 Information Resources
      Management Plan, September 2006.
   4. U.S. Department of Energy Information Resources Management Strategic Plan FY
      2007-2009.
   5. Department of Justice IT Strategic Plan Fiscal Years 2006-2011.
   6. Farm Credit Administration Information Resources Management IRM Plan Fiscal
      Years 2007-2012.

This audit was performed in accordance with generally accepted government auditing
standards. We conducted our field work at the SSA Headquarters in Baltimore, Maryland
from January through May 2007.




                                             B-2
                                                                        Appendix C

Farm Credit Administration, Information Resources
Management, IRM Plan Fiscal Years 2007-2012
C. Development Projects

  New system development projects further our goal of encouraging innovative uses
  of technology geared toward improving Agency information collection, retrieval, and
  distribution. This encompasses projects such as developing new or custom-
  designed client/server applications, providing the capacity to conduct business
  electronically internally and externally, assuring public access to Federal
  information, providing government-wide e-mail, and developing workflow
  applications.

  New system development projects in Fiscal Year 2007 are projected to require
  1,034 staff days, which is a 558-day increase from the previous year. There are 22
  proposed new development projects. The dollar costs reflected for each project
  include Farm Credit Administration (FCA) resource costs as well as any externally
  purchased resources.

  1. Infrastructure Review – Office of Management Services (OMS)

     With the client/server architecture at the end of its life cycle at FCA, this project
     will re-evaluate the method of delivering Information Technology (IT) services at
     FCA to ensure delivery is effective and provided at the best cost-value. The
     improvements in technology, including the ability to secure information, use the
     Internet as a reliable highway for delivering information, and the increased need
     for portability and flexibility of technology delivery to FCA staff are drivers of this
     initiative. Newer architectures, including Web-based and Web-enabled, may
     offer the ability to reduce operating costs, accelerate the delivery of applications,
     and further empower our clients by providing them the ability to more easily
     access information necessary to support their decision-making processes. This
     project will undertake the evaluation of client/server as well as Web-based and
     Web-enabled architectures and their applicability to the delivery of IT services in
     the FCA environment.

     This project will (1) evaluate the effectiveness and efficiency of delivering IT
     services using the client/services model, and include a review of Lotus Notes; (2)
     analyze other architectures including web-based and web-enabled architectures
     using web services; (3) evaluate the costs and benefits of moving to another
     architecture; (4) make a recommendation on the appropriate architecture for
     FCA's IT delivery; (5) evaluate and select new user and development tools to
     support the appropriate architecture; (6) select new tools and begin migration of
     legacy applications to new architecture; and (7) design architecture infrastructure


                                           C-1
   to support and optimize the selected architecture (possible infrastructure
   centralization).

   The evaluation and selection of an appropriate IT architecture, configuration and
   tools improves future capacity of the Agency's IT investment to meet the
   changing needs of the Agency. The IT architecture hosts and delivers all
   applications, both critical and non critical, and is essential to efficiently providing
   the tools customers need to perform their duties.

              FY      FY             FY          FY        FY          FY          Total
              2007    2008           2009        2010      2011        2012
   Total      232,050 452,420        150,850     44,150    140,050     153,950     1,173,470
   Cost
   OMS        2,490      2,524       2,120       200       200         500         8,034
   Hours

2. Examination Workflow Integration – Office of Examination (OE)

   This project and its various components represent a significant investment in
   building the new OE, and as such may require substantial resources and
   emphasis. In fact, various components have already been discussed and
   resources allocated through the OE Strategic Plan initiatives. This OE Workflow
   Integration project takes things one step further by integrating all the various
   components into a common technology platform/system. There are likely other
   similar examples of processes that could be better integrated. It is important that
   as OE teams evaluate existing processes/systems or develop new ones, that the
   technology platform and approach used can result in easy integration with other
   systems, either immediately or at a later date.

   The goal of this project is to improve our examination processes, risk
   supervision, and communications, both internally and externally. The project is
   focused on integrating key aspects of OE workflow using technology solutions,
   creating an application that will provide a central “launch pad” (i.e., graphical user
   interface) which seamlessly integrates disparate information and systems. The
   integration of these systems will allow OE to replace manual processes with
   more automated processes, thereby greatly increasing our efficiency,
   effectiveness, and consistency. We believe this will be a critical cornerstone for
   the “new OE.” This project will involve a number of parties within and outside OE
   (particularly OMS), and needs to be closely coordinated through the OE IRM
   Operations Committee representative.




                                         C-2
              FY         FY          FY          FY           FY            FY       Total
              2007       2008        2009        2010         2011          2012
    Total     105,500    105,500     55,500      35,500       35,500        35,500   373,000
    Cost
    OMS       100        100         100         100          100           100      600
    Hours

3. Electronic Recordkeeping-Knowledge Management - OMS

  This project is to explore and recommend an electronic recordkeeping and
  knowledge (ERK) management system to manage the Agency's official records
  and institutional knowledge within appropriate legal and regulatory requirements.

  An ERK capability will impact the FCA at all levels by providing timely electronic
  (desktop) access to Agency records for all staff members. ERK will provide an
  enterprise-wide strategy through which official FCA records can be managed
  throughout their lifecycle of document creation, management, distribution,
  storage, retrieval, destruction and/or transmittal to the National Archives and
  Records Administration (NARA). It will also enable the Agency to implement a
  program to manage and retain its critical institutional, technical, and operational
  knowledge. When implemented, a knowledge management mechanism will also
  negate the impact of anticipated staff retirements.

  In the short-term, ERK will require a significant investment of FCA resources but
  will result in the realization of long-term benefits. In order for the Agency to
  successfully develop and implement an ERK system, it is imperative the
  initiatives receive visible and consistent support from senior and executive
  management. Any ERK system adopted by the FCA must be compliant with the
  Department of Defense Standard 5015.2 (DoD 5015.2), which is the current
  NARA-endorsed system for Federal recordkeeping.

            FY          FY         FY          FY       FY     FY                 Total
            2007        2008       2009        2010     2011   2012
   Total    183,700     187,200    107,200     99,200   99,200 191,700            868,200
   Cost
   OMS      2,220       880        880         880      880         2,220         7,960
   Hours




                                         C-3
                                                                                            Appendix D
United States Department of the Interior, Bureau of Land Management,
Information Resources Management Strategic Plan, 2002-2005
Goal 3: Support the Bureau’s Mission by increasing the Effectiveness and Timeliness of Service
Delivery and Effectiveness of its Human Capital
Objective 2: Recruit and/or retain skilled IRM personnel that are competent in both current and
emerging technologies.
As part of managing IT assets, BLM must invest in timely, appropriate, and industry-standard education and
training to ensure technical staffs in national and field offices understand and can apply current and future
technologies. This strategy involves both a commitment to recruit, train, and retain talented BLM personnel
as well as collaborating with other agencies and organizations to fully utilize their talented individuals and
share resources wherever possible. Arrangements with other agencies will also be used to share technical
personnel in an era of diminishing budgets. BLM will also stay abreast of emerging trends through an ongoing
program of technology evaluation. New technologies will be introduced through pilot projects where both
the automation and its business benefits and costs can be evaluated prior to any Bureau-wide adoption or
full-scale deployment occurs.

                                                                              FY         FY        FY             FY
Outcome                            Performance Measure                       2002       2003      2004           2005
                                                                             goal       goal      goal           goal
Increased availability of IT       Avg percentage of time that                2%        1.75%      1.5%      01.25%
resources                          national systems are unavailable

Increased customer                 Customer feedback increases in              -         base     +10%       +10%
confidence                         value section                                         line
Improved performance of IT         Percentage of times IT problems           base-                +10%       +10%
resources                          are resolved in one service call.          line      +10%
                                   Length of time to resolve problem.       -20%        -20%       -20%          -20%

Skilled IRM support staff to       Average length of service once            base-       +5%       +5%           +5%
manage and maintain the            employees are considered ‘skilled’         line
Bureau's systems
Product                            Action/Method                                   Responsible Party             Date

Baseline IT performance            Conduct a study of common IT                        AD-500                    FY02
statistics                         performance statistics to be
                                   collected annually

Implementation of                  Conduct a study of incentives and                   AD-500                    FY03
Innovative Personnel               other new alternative management                    AD-700
Management Practices for           practices for use in BLM
IRM staff

Development of Cross-              Participate in Department-wide                      AD-500                    On-
agency sharing and other           teams that are charged with                                                   going
IRM efforts                        Interior-wide responsibilities
                                                                                 Appendix E
U.S. Fish & Wildlife Service Information Resources and Technology Management
Strategic Plan – Version 1.0, 09/30/2005
Goal 3: Enhance IRTM Skills of Service Employees. Through planning, assessment, and
education efforts, establish and maintain an adequately skilled workforce to optimize the
productive use of IRTM. Continue to partner closely with the National Conservation Training
Center (NCTC) to ensure that IRTM information is incorporated in the appropriate classes.

Objective 3.1: Recruit and retain sufficient skilled IT personnel, competent in current and
emerging technologies, to optimize the productive use of IT. Ensure that the Service has an
adequate number of sufficiently skilled IT personnel on an ongoing basis to realize the potential
benefits from the use of IT by all employees.

                            Target Results                                     Responsible    Date
                                                                                 Parties
All regions, programs, and offices assess existing IT staff, skills,         IRTM, CTO        2006
workload, organization and future needs and develop workforce                Council
plans to meet those needs.

Improved outreach to support IT skills. Required actions include:            IRTM, NCTC,      2006
    • Partnerships with programs, regions, and NCTC to improve               CTOs
outreach and education.
    • Partnership with NCTC to ensure that current IT initiatives and
polices are incorporated in appropriate training classes.
    • Partnerships with DOI IT Training Team to take advantage of
global training requirements and not duplicate or compete same
technology among bureaus.




             Performance Measures                         FY            FY         FY         FY
                                                         2005          2006       2007       2008
                                                         goal          goal       goal       goal
Number of Regions and programs in compliance
                                                           -       Base-line
with policy on IT skill sets.
Regions and Offices with IT workforce plans in
                                                           -           All         All       All
effect
                  Appendix F

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      September 14, 2007                                                    Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/

Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s
           Information Resources Management Strategic Plan” (A-14-07-27133)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S INFORMATION
RESOURCES MANAGEMENT STRATEGIC PLAN ”(A-14-07-27133)

Thank you for the opportunity to review and comment on the draft report. We appreciate
your conducting this audit of the Social Security Administration’s (SSA) information
resources management strategic plan.

Recommendation 1

For issues related to SSA as a whole, SSA should establish a long range Information
Resources Management (IRM) strategic planning process that covers a period consistent
with the Agency’s Strategic Plan.

Comment

We agree to establish a long range IRM strategic planning process that covers a period
consistent with the Agency’s Strategic Plan.

Recommendation 2

For issues specific to SSA’s IRM Plan, SSA should continue plans to include conceptual
diagrams and a supplemental description of SSA’s existing and target Enterprise
Architecture (EA).

Comment

We agree and have plans to include the following information in the 2008 IRM Strategic
Plan:
      • the existing and target EA diagrams;
      • a verbal description of the fundamental differences between the current and
         future diagrams; and
      • a transition strategy that documents the EA segmentation as well as the projects
         to manage the orderly transition from the current to the future state.

Recommendation 3

SSA should adopt the general structure of the Agency’s Strategic Plan, in IRM Plan
Chapter 3, where SSA discusses its major information technology (IT) initiatives. To
provide the audience with a clear roadmap of how SSA plans to achieve the goals and
objectives it defined, for each of SSA’s Strategic Objective Portfolios, SSA should
discuss areas such as the following: 1) strategic goals and objectives; 2) performance




                                           F-2
measures with results; 3) information resources management activities (IT projects and
strategies); 4) major milestones and time frames; 5) funding, technology, and IT staffing
needs; and 6) challenges, constraints, possible solutions and related projections if
available.

Comment

We agree and have begun taking steps to restructure Chapter 3 of SSA’s 2008 IRM
Strategic Plan (to be published in 2007) with a focus on including more strategic
information, covering a 5-year period, to tie the information to the Agency’s Strategic
Plan.




                                            F-3
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, Data Analysis and Technical Audits Division, (410) 965-9702

   Albert Darago, Audit Manager, Application Controls Branch, (410) 965-9710

Acknowledgments

In addition to those named above:

   Grace Chi, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-14-07-27133.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
